ER-B-98-07



          AUDIT
         REPORT


                                     PERSONAL PROPERTY
                                            AT THE
                                 OAK RIDGE OPERATIONS OFFICE
                                           AND THE
                                   OFFICE OF SCIENTIFIC AND
                                   TECHNICAL INFORMATION




                                             APRIL 1998




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                          DEPARTMENT OF ENERGY
                                             Washington, DC 20585
                                                  April 6, 1998


MEMORANDUM FOR THE MANAGER, OAK RIDGE OPERATIONS OFFICE AND THE
  DIRECTOR, OFFICE OF SCIENTIFIC AND TECHNICAL INFORMATION

FROM:                 Terry L. Brendlinger
                      Eastern Regional Audit Office
                      Office of Inspector General

SUBJECT:       INFORMATION: Audit Report on "Personal Property at the Oak Ridge Operations Office
               and the Office of Scientific and Technical Information"

BACKGROUND

The Oak Ridge Operations Office (Operations Office) and the Office of Scientific and Technical Information
(OSTI) are responsible for safeguarding and controlling personal property in their possession and in the
possession of their contractors. Categories of personal property include vehicles, heavy mobile equipment,
computers and software, office furniture and equipment, laboratory equipment, security and protection
equipment, and shop equipment. The objective of this audit was to determine whether the Operations Office
and OSTI adequately safeguarded and properly accounted for personal property in their possession and in
the possession of their non-integrated contractors.


RESULTS OF AUDIT

The audit disclosed that the Operations Office and OSTI did not adequately safeguard or properly account
for personal property in their possession and in the possession of their non-integrated contractors. Property
records were inaccurate and incomplete, and financial records differed considerably from property records.
These conditions occurred because Departmental personnel did not follow established procedures and
management did not enforce the requirements. As a result, 5 capital equipment items valued at $769,000
and 18 sensitive property items valued at $42,000 were missing. We recommend that the Operations Office
and OSTI require all property managers to consistently follow the Property Management Regulations.


MANAGEMENT REACTION

Management agreed with the audit findings and recommendations and stated that appropriate action would
be taken to correct the conditions disclosed in the report.




Page 10
Personal Property at the Oak Ridge Operations Office and
the Office of Scientific and Technical Information


TABLE OF
CONTENTS



                   Overview

                   Introduction and Objective .........................................................1

                   Observations and Conclusions.................................................. 2


                   Safeguarding and Accounting for Property

                   Details of Finding ......................................................................4

                   Recommendations and Comments ............................................7


                   Appendix
                   Scope and Methodology ............................................................8
Overview

INTRODUCTION AND   The Operations Office and OSTI are responsible for safeguarding and
OBJECTIVE          controlling personal property in their possession and in the possession of
                   their contractors. The Department defines personal property as any
                   property except real estate, records, special source materials, and
                   petroleum in the Strategic and Naval Petroleum Reserves. Categories of
                   personal property include vehicles, heavy mobile equipment, computers
                   and software, office furniture and equipment, laboratory equipment,
                   security and protection equipment, and shop equipment. In Fiscal Year
                   (FY) 1997, the Department reported that the Operations Office and its
                                               1
                   non-integrated contractors had $372 million in personal property and
                   OSTI had $4 million in personal property.

                   The Office of Inspector General (OIG) has issued numerous audit
                   reports identifying opportunities for the Department to improve its
                   management of personal property. In March 1994, the OIG issued
                   Report DOE/IG-0344, Summary Report on the Department of Energy’s
                   Management of Personal Property. The report summarized the results
                   of 26 previous OIG reports dealing with personal property, suggesting
                   that the Department could do more to ensure that its contractors follow
                   sound business practices in managing Government-owned personal
                   property. Key issues identified in the previous summary report included
                   the following:

                       • Contractor property management systems were not reviewed and
                         approved in a timely manner;

                       • Property inventory records were not sufficient to identify the
                         types, quantities, locations, and cost of personal property
                         inventories; and

                       • Contractors were not properly identifying, storing, and disposing
                         of excess personal property.




                   1
                    Non-integrated contractors work for the Department and receive Departmental funds
                   as reimbursement for the work performed. However, their accounting records are not
                   integrated with the department.




Page 1                     Personal Property at the Oak Ridge Operations Office and
                                    the Office of Scientific and Technical Information
                   In November 1994, the OIG issued Report ER-B-95-02, Report on Audit
                   of Property Management at Fernald Environmental Restoration
                   Management Corporation. The audit concluded that Fernald
                   Environmental Restoration Management Corporation did not properly
                   acquire, protect, and account for Government property in its possession
                   or the possession of its subcontractors. In October 1995, the OIG issued
                   Report WR-B-96-04, Audit of Fuel Processing Restoration Property.
                   The audit concluded that the Idaho National Engineering Laboratory and
                   its contractors did not completely and accurately account for $54 million
                   of property and promptly redistribute or appropriately excess property.
                   Finally, in April 1996, the OIG issued Report WR-B-96-06, Audit of
                   Bonneville Power Administration's Management of Information
                   Resources. The audit concluded that improvements were needed to
                   ensure that Government equipment at the Bonneville Power
                   Administration was properly tagged and included in property records,
                   and to identify unused equipment for disposal or redistribution.

                   The objective of this audit was to determine whether the Operations
                   Office and OSTI adequately safeguarded and properly accounted for
                   personal property in their possession and in the possession of their
                   non-integrated contractors.


                   The audit disclosed that the Operations Office and OSTI did not
OBSERVATIONS AND   adequately safeguard or properly account for personal property in their
CONCLUSIONS        possession and in the possession of their non-integrated contractors.
                   Property records were inaccurate and incomplete, and financial records
                   differed considerably from property records. These conditions occurred
                   because Departmental personnel did not follow established procedures
                   and management did not enforce the requirements. As a result, 5 capital
                                    2                                                    3
                   equipment items valued at $769,000 and 18 sensitive property items
                   valued at $42,000 were missing.




                   2
                    Capital equipment is property that cost $25,000 or more to acquire and must be
                   included in the Department’s financial statements.
                   3
                    Sensitive property is property that is susceptible to misappropriation for personal use
                   or property which can be readily converted to cash.




Page 2                            Personal Property at the Oak Ridge Operations Office
                                   and the Office of Scientific and Technical Information
         The audit identified material internal control weaknesses that
         management should consider when preparing its yearend assurance
         memorandum on internal controls.




                                                            /s/
                                             Office of Inspector General




Page 3         Personal Property at the Oak Ridge Operations Office and
                        the Office of Scientific and Technical Information
Safeguarding and Accounting for Property

Property Records        Property records maintained by the Operations Office, OSTI, and four
Were Inaccurate and     non-integrated contractors were inaccurate and incomplete. We tested
                        the accuracy of property records for 242 capital equipment items and
Incomplete
                        determined that 13 items, valued at $1.2 million, could not be located,
                        and 10 items were in different locations than shown on the property
                        records. Also, we randomly selected 891 sensitive property items and
                        determined that 100 items, valued at about $327,000, could not be
                        located, and 85 items were in different locations than shown on the
                        property records.

                        Additionally, we randomly selected 395 property items that were
                        physically located at the Operations Office, OSTI, and non-integrated
                        contractor sites, and reviewed property records to determine if the items
                        were properly recorded. We determined that 104 of the 395 items were
                        not recorded on the property records, and 34 items were not at the
                        locations shown on the property records. The items that were not
                        recorded on property records included two computer workstations and
                        two interfaces which were still in the original shipping boxes.
                        Operations Office personnel stated that the items had been received by a
                        subcontractor, but the subcontractor did not tag computer equipment
                        with a property number and enter it into the property records until
                        someone requested the equipment.


                        Also, significant differences existed between financial records and
Financial Records Did
                        property records for the Operations Office, OSTI, and the four
Not Agree With
                        non-integrated contractors. We identified differences totaling
Property Records
                        $9.9 million between the Department’s financial records and the sites’
                        property records for FY 1997. For example, the financial records
                        identified 17 capital equipment items at the Operations Office valued at
                        $4.2 million; however, the property records identified 52 items valued at
                        $8.7 million. Therefore, there was a discrepancy of $4.5 million
                        between the financial and property records. The differences between
                        financial and property records were caused by numerous errors in both
                        record types. Among the most significant errors were items that were
                        misclassified as personal property, items that were recorded more than
                        once, and items that were excessed and still included in the financial or
                        property records.




Page 4                                                                       Details of Finding
Operations Office and   The Department’s management of personal property is governed by the
OSTI Were Required to   Property Management Regulations (codified as 41 CFR Chapter 109).
Maintain an Effective   The regulations establish requirements for the Department, its
Property Management     contractors, and their subcontractors to ensure that property is managed
System                  economically and efficiently. "Personal property management" includes
                        the development, implementation, and administration of policies,
                        programs, and procedures for proper acquisition, receipt, storage, use,
                        control, physical protection, care and maintenance, and appropriate
                        disposal. Contractors’property management systems are subject to
                        approval by the Department.

                        The Department and its contractors are required to develop and maintain
                        complete and accurate records of personal property. All Departmental
                        organizations and contractors are required to conduct a physical
                        inventory of capital equipment at least biannually and sensitive property
                        at least annually. Independent representatives from organizations such
                        as finance, audit, or property are required to observe the inventories or
                        perform follow-on audits to ensure that procedures are followed and the
                        results are accurate. The observation or audit results should be
                        documented and retained in the inventory file. The regulations state that
                        inventory procedures limited to a check-off of recorded property
                        without actual verification of the location or existence of such property
                        do not meet the requirements of a physical inventory. In addition, the
                        results of physical inventories must be reconciled with the property and
                        financial records.

                        Operations Office and OSTI personnel did not follow, and management
Personnel Did Not       did not enforce, the Property Management Regulations. Personal
Follow Established      property was not always recorded upon receipt, and property records
Procedures and          were not audited or reviewed to ensure accuracy and completeness.
Management Did Not      Also, inventories were not properly conducted, and management did not
Enforce Requirements    observe the inventories or perform follow-on audits. We concluded that
                        instead of performing wall-to-wall inventories, Departmental personnel
                        limited their inventories to a check-off of recorded property without
                        actually verifying the location or existence of the property. Further,
                        management did not reconcile inventory results with property and
                        financial records.




Page 5                                                                       Details of Finding
Personal Property    As a result of personnel not following and management not enforcing
Valued at $811,000   the Property Management Regulations, $1.2 million in capital
Was Missing          equipment and $327,000 in sensitive property were missing at the
                     Operations Office, OSTI, and 3 non-integrated contractor sites as of
                     December 19, 1997. Personnel at the Thomas Jefferson National
                     Accelerator Facility (TJNAF) were able to locate all property items. We
                     did not project the audit results for all personal property assigned to the
                     Operations Office, OSTI, and non-integrated contractors because (1) we
                     performed samples at only six sites, and the sample results may not be
                     representative for all sites; and (2) we could not determine the dollar
                     universe for sensitive property because the Operations Office did not
                     record dollar values for most of its sensitive property.

                     In response to our draft report, management stated that all but 5 capital
                     equipment items valued at $769,000 and 18 sensitive property items
                     valued at $42,000 had been found. In most cases, the items were in the
                     wrong location or were in the process of being changed to a surplus
                     status.




Page 6                                                                     Details of Finding
RECOMMENDATIONS       We recommend that the Manager, Oak Ridge Operations Office, and the
                      Director, Office of Scientific and Technical Information, require all
                      property managers to consistently follow the Property Management
                      Regulations. Specifically:

                             1. Establish management controls to ensure that all property
                                items are promptly tagged and properly recorded upon
                                receipt;

                             2. Periodically review and update property records to ensure
                                accuracy and completeness;

                             3. Conduct wall-to-wall inventories of capital equipment and
                                sensitive property, and assign independent representatives to
                                observe the inventories, ensuring that proper procedures are
                                followed and the results are accurate;

                             4. Reconcile inventory results with property records and
                                financial records; and

                             5. Review non-integrated contractors’property management
                                systems to ensure compliance with Departmental policies and
                                procedures.


                      The Operations Office and OSTI concurred with the finding and
MANAGEMENT REACTION
                      recommendations and agreed to take corrective action.


                      We consider management's corrective actions to our recommendations
AUDITOR COMMENTS      to be responsive.




Page 7                                                 Recommendations and Comments
Appendix

SCOPE         The audit was performed from April 21 to December 19, 1997, at the
              Operations Office and OSTI in Oak Ridge, Tennessee, and four
              nonintegrated contractors under the Operation Office's cognizance: East
              Tennessee Mechanical Contractors (ETMC) and Bechtel National, Inc.,
              (Bechtel) in Oak Ridge, Tennessee; MK-Ferguson in Weldon Springs,
              Missouri; and TJNAF in Newport News, Virginia. The number of items
              and cost for capital equipment and sensitive property reported by the
              sites in FY 1997 are summarized below.



                                     Capital        Total      Sensitive   Total
                                    Equipment       Cost       Property    Cost
                    Entity            Items       (Millions)    Items    (Millions)
               Operations Office       52          $ 8.7        2,550       $ 4.4
               OSTI                    55            4.4        1,496         2.9
               TNJAF                  298           23.5        7,111        15.8
               MK-Ferguson             33            1.6        4,593         6.1
               ETMC                    26            1.3          943         2.9
               Bechtel                 20            2.5        3,733         3.0
                   Total              484         $42.0        20,426      $35.1


                     To accomplish the audit objective, we:

METHODOLOGY          • Reviewed Federal and Departmental regulations for property
                       management and financial reporting;

                     • Analyzed inventory records for the Operations Office, OSTI,
                       and four non-integrated contractors;

                     • Evaluated the accuracy of property records for 242 capital
                       equipment items at six sites, including all 186 items at
                       5 sites and 56 items randomly selected from a universe of
                       298 items at TJNAF;

                     • Evaluated the accuracy of 891 property records for sensitive
                       property items which were randomly selected from a universe
                       of 20,426 items at the six sites;
                     • Reviewed property records for 395 personal property items
                       randomly selected at the six sites to verify that the items were

Page 8                                                     Scope and Methodology
                    randomly selected at the six sites to verify that the items
                    were properly recorded; and

                • Evaluated financial records for accuracy and inclusion in
                  the Department's financial statements.

         The audit was performed in accordance with generally accepted
         Government auditing standards for performance audits and included
         tests of internal controls and compliance with laws and regulations to
         the extent necessary to satisfy the audit objective. Accordingly, we
         assessed significant internal controls related to the Operations Office's
         and OSTI's management of personal property. Because our review
         was limited, it would not necessarily have disclosed all internal
         control deficiencies that may have existed at the time of our audit.

         We relied on computer-generated data in the Operations Office's
         accounting system to accomplish the audit objective. We assessed
         the reliability of the data as it pertained to the audit objective,
         including relevant general and application controls and found them to
         be adequate. Based on these assessments, we concluded that the data
         were sufficiently reliable to be used in meeting the audit objective.

         We held exit conferences with the Chief, Contracts and Property
         Management Branch, Oak Ridge Operations Office, on March 9,
         1998, and the Assistant Manager, Office of Scientific and Technical
         Information, on March 24, 1998.




Page 9                                               Scope and Methodology
                                                                                IG Report No. ER-B-98-07

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
